IN THE

frvapttm fllrrurf jtf tip $mttb
No.

Certificate of Service

Karl Geppert,
Petitioner,

RECEIVED

V.

Maryland Motor Vehicle Administration,
Respondent.

■ h 2020
SUPREME5COURTLmRqK

I hereby declare that on this date,_ December 28, 2020, as
required by Supreme Court Rule 29, I have, served the PETITION FOR
A WRIT Of Certiorari on the following party required to be served,
by delivering the requisite copies of the petition to a third-party courier
for delivery:
Leight D. Collins and Neil I. Jacobs
Assistant Attorneys General
Motor Vehicle Administration
6601 Ritchie Highway, N.E.
Glen Burnie, Maryland 21062
I certify under penalty of perjury that the foregoing is true and correct.
Executed on December 28, 2020.

jk&zJL tw/u
Karl Geppert
Petitioner pro se

